No:
IN THE
SUPREME COURT OF THE UNITED STATES
PETER BOBAL
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Peter Bobal, by and through undersigned counsel and pursuant to SUP. CT.
R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for a Writ of Certiorari filed
in the above-styled matter was sent in an envelope via third party commercial carrier for
delivery within three days, addressed to the Clerk of the Supreme Court of the United
States, on the 29th day of April, 2021, which is the time the petition for writ
of certiorari is due.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
April 29, 2021

By:

s/Tracy Dreispul
Tracy Dreispul
Assistant Federal Public Defender
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
(305) 536-6900

